No. 20-5379
INTHE

hprtmt C!tnurt nf tlJt lnitth ~ s
KEITH ADAIR DAVIS,

Petitioner,

v.
STATE OF WASHINGTON,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF WASHINGTON

CERTIFICATE OF SERVICE

I, Matthew T. Martens, a member of the bar of this Court, hereby certify that, on
this 30th day of September, 2020, all parties required to be served have been served
copies of the Brief for The Cato Institute as Amicus Curiae Supporting Petitioner in
this matter by overnight courier to the addresses below.

Counsel of Record for Petitioner

Counsel of Record for Respondent

DAVID BRUCE KOCH
NIELSEN KOCH, PLLC

JAMES MORRISSEY WHISMAN
KING COUNTY PROSECUTOR'S OFFICE

1908 E. Madison St.
Seattle, WA 98122
(206) 623-2373
kochd@nwattorney.net

516 3rd Avenue
W554 King County Courthouse
Seattle, WA 98104
(206) 477-9577
jim.whisman@kingcounty.gov

vp/t4!~ I. Jl/cJt ~j?JJ
MATTHEW T. MARTENS

Counsel of Record

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
matthew.martens@wilmerhale.com

